           Audit Report



     Administrative Law
    Judge/Public Alleged
Misconduct Complaints System




     A-05-11-01131 | July 2013
MEMORANDUM


Date:      July 9, 2013                                                       Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Administrative Law Judge/Public Alleged Misconduct Complaints System (A-05-11-01131)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Office of Disability Adjudication and Review’s Administrative Law Judge/Public
           Alleged Misconduct Complaints system was properly identifying and tracking all administrative
           law judge complaints to resolution. We also sought to determine whether the system was
           operating as intended.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Administrative Law Judge/Public Alleged Misconduct
Complaints System
A-05-11-01131
July 2013                                                                 Office of Audit Report Summary

Objectives                                Our Findings

To determine whether the Office of        DQS closed 1,490 ALJ misconduct complaint cases in Fiscal Year
Disability Adjudication and Review’s      (FY) 2011. Using the information in the ALJ/PAMC system, we
(ODAR) Administrative Law                 determined the overall ODAR median processing time for
Judge/Public Alleged Misconduct           complaints was about 894 days, and DQS median processing time
Complaints (ALJ/PAMC) system was          was about 400 days. Moreover, the ALJ/PAMC system did not
properly identifying and tracking all     have sufficient milestones to identify processing delays, though
ALJ complaints to resolution. We also     DQS started developing such milestones during our review.
sought to determine whether the
system was operating as intended.         Of the complaints closed in FY 2011, DQS substantiated about
                                          4 percent of the cases. DQS closed approximately 11 percent of the
Background                                cases because the ALJ left SSA before DQS completed a full
                                          review of the complaint. About 5 percent of the decision fields was
Claimants and their advocates or          left blank in the system. DQS determined the remaining 80 percent
representatives may file a complaint      of the cases was unsubstantiated.
against an ALJ if they believe the ALJ
was biased or engaged in improper         We also found the ALJ/PAMC system was not capturing key data
conduct. ODAR’s Division of Quality       to assist Agency managers responsible for addressing ALJ
Service (DQS) reviews and resolves        complaints and improving customer service. In addition, the
these complaints with the assistance of   Agency could improve outreach to the public to ensure the public
ODAR’s regional office (RO) staff, as     was aware of all the options for filing a complaint against an ALJ to
appropriate. In February 2010, SSA        identify improper behavior, including racial discrimination. We
announced it was establishing a new       also could not determine the reliability of the ALJ/PAMC system
system of records to track ALJ            because DQS did not have documentation to support some of the
complaints. According to the public       data, initial data input was not uniform, and some key data fields
notice, SSA designed the new              were left blank. Finally, at the time of our review, DQS was not
ALJ/PAMC system to provide the            sharing ALJ/PAMC system management information with internal
Agency with information to                or external parties, though DQS was planning to share more
(1) manage and respond to complaints;     information with the ROs as well as grant them access to the
(2) process, review, or investigate       system.
complaints; (3) identify the parties to
the complaint, including the names of     Our Recommendations
the claimants and the ALJs who
allegedly committed misconduct; and       We made a number of recommendations related to written
(4) document, monitor, and track ALJ      procedures, system modifications, public notices, management
complaints to identify patterns of        information, and data quality issues.
improper behavior requiring further
                                          SSA agreed with all of our recommendations.
action.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     ALJ Complaint Processing Trends ............................................................................................3
           Complaints Per ALJ .............................................................................................................3
           Timeliness of Complaint Processing ...................................................................................4
           Outcomes of Complaint Processing .....................................................................................6
     System Information and Reports for Interested Parties .............................................................8
           Key ALJ Complaint Data Fields ..........................................................................................9
           Support for ALJ Complaint Data .......................................................................................10
           Age of ALJ Complaint Data ..............................................................................................11
           MI for Internal and External Parties ..................................................................................11
Conclusions ....................................................................................................................................12
Recommendations ..........................................................................................................................12
Agency Comments .........................................................................................................................13
Appendix A — Administrative Law Judge Complaint Process Flowchart ................................ A-1
Appendix B — Scope and Methodology ................................................................................... B-1
Appendix C — Case Characteristics of Three Administrative Law Judge Complaint Cases .... C-1
Appendix D — Timeliness of Complaint Processing in Fiscal Year 2011 ................................ D-1
Appendix E — How to File an Unfair Treatment Complaint Concerning an Administrative Law
           Judge .......................................................................................................................E-1
Appendix F — Review of Sample Administrative Law Judge Complaints ............................... F-1
Appendix G – Agency Comments .............................................................................................. G-1
Appendix H – Major Contributors.............................................................................................. H-1




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)
ABBREVIATIONS
AC                  Appeals Council

ALJ/PAMC            Administrative Law Judge/Public Alleged Misconduct Complaints

CPMS                Case Processing and Management System

DQS                 Division of Quality Service

Fed. Reg.           Federal Register

FY                  Fiscal Year

GAO                 Government Accountability Office

MI                  Management Information

OAO                 Office of Appellate Operations

ODAR                Office of Disability Adjudication and Review

OGC                 Office of the General Counsel

OIG                 Office of the Inspector General

POMS                Program Operations Manual System

RO                  Regional Office

SSA                 Social Security Administration

SSR                 Social Security Ruling




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)
OBJECTIVES
Our objective was to determine whether the Office of Disability Adjudication and Review’s
(ODAR) Administrative Law Judge/Public Alleged Misconduct Complaints (ALJ/PAMC)
system was properly identifying and tracking all ALJ complaints to resolution. We also sought
to determine whether the system was operating as intended.

BACKGROUND
Claimants and their advocates or representatives may file a complaint against an ALJ if they
believe the ALJ was biased or engaged in improper conduct. 1 Individuals may submit written
complaints to the Office of the Chief ALJ as well as regional offices (RO) and hearing offices.
ODAR receives complaints through a variety of other means, including the Appeals Council
(AC), the Social Security Administration’s (SSA) National 800-Telephone Number Network, the
Office of the Inspector General’s (OIG) Hotline, and members of Congress on behalf of their
constituents. According to SSA policy, ODAR will review, investigate, and respond to each
public complaint against an ALJ. 2 The Division of Quality Service (DQS), 3 within ODAR’s
Office of Executive Operations and Human Resources, reviews and resolves these complaints
with the assistance of ODAR’s RO staff, as appropriate. At the time of our review, DQS had
assigned approximately 12 employees, including 2 branch chiefs and permanent and detailed
staff, to handle ALJ complaints. 4

In February 2010, SSA announced it was establishing a new system of records to track ALJ
complaints. 5 According to the public notice, SSA designed the new ALJ/PAMC system to
provide the Agency with information to (1) manage and respond to complaints; (2) process,
review, or investigate complaints; (3) identify the parties to the complaint, including the names
of the claimants and ALJs who allegedly committed misconduct; and (4) document, monitor, and
track ALJ complaints to identify patterns of improper behavior requiring further action.



1
    See Appendix A for a flowchart of the ALJ complaint process.
2
 Notice of Procedures: Social Security Administration Procedures Concerning Allegations of Bias or Misconduct by
Administrative Law Judges, 57 Fed. Reg. 49186 (October 30, 1992). SSA was in the process of updating these
procedures to clarify the roles of SSA, the AC, and the Office of the General Counsel (related to civil rights issues)
at the time of our review consistent with a February 2013 Social Security Ruling (SSR). See SSA, SSR 13-1p:
Titles II and XVI: Agency Processes For Addressing Allegations of Unfairness, Prejudice, Partiality, Bias,
Misconduct, or Discrimination by Administrative Law Judges (ALJs) (Effective February 28, 2013); 78 Fed. Reg.
6168 (January 29, 2013); and Corrections 78 Fed. Reg. 9987 (February 12, 2013) and 78 Fed. Reg. 22361
(April 15, 2013).
3
    In addition to processing ALJ complaints, DQS is responsible for employee and labor relations issues.
4
  DQS management stated that the employees handling ALJ complaints spent no more than 50 percent of their work
time on this workload. In addition, approximately 32 RO employees assist with processing the ALJ complaints.
5
    Administrative Law Judge/Public Alleged Misconduct Complaints System, 75 Fed. Reg. 8171 (February 23, 2010).

Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                                1
Our October 2008 report on customer service issues at the Dover hearing office 6 noted that
ODAR did not have an automated database to track and produce management information on
relevant trends, such as repeated bias complaints associated with an ALJ. The report also stated
that information regarding the complaint process was inaccurate and not always publicized in
hearing offices. 7 In addition, an earlier report from the Government Accountability Office
(GAO) on SSA’s identification of complaints of racial bias against ALJs 8 stated that, while the
ALJ complaint process provided a mechanism for claimants to allege discrimination, it lacked
useful mechanisms for detecting patterns of possible racial discrimination. Our current review
sought to determine whether the new ALJ/PAMC system addressed these and other concerns.
See Appendix B for our scope and methodology.

RESULTS OF REVIEW
DQS closed 1,490 ALJ misconduct complaint cases in Fiscal Year (FY) 2011. Using the
information in the ALJ/PAMC system, we determined the median times for various processing
timeframes in FY 2011.

•         The overall ODAR processing time, from the ALJ hearing to the closing of the complaint,
          was about 894 days since the AC needed to process the majority of the cases before DQS
          could initiate its own review.

•         DQS processing time was about 400 days.

•         RO processing time, a subset of DQS processing time, was about 201 days.

We also found wide variances in the time ROs spent investigating complaints, but incomplete
dates in the ALJ/PAMC system made it difficult to determine the full extent of this disparity.
Moreover, the ALJ/PAMC system did not have sufficient milestones to identify processing
delays, though DQS started developing such milestones during our review.

Of the complaints closed in FY 2011, DQS substantiated 4 percent. DQS closed approximately
11 percent of the cases because the ALJ left SSA before DQS completed a full review of the
complaint. About 5 percent of the decision fields was left blank in the system. DQS determined
the remaining 80 percent of the cases were unsubstantiated.

We also found the ALJ/PAMC system was not capturing key data to assist Agency managers
responsible for addressing ALJ complaints and improving customer service. In addition, the
Agency could improve outreach to the public to ensure the public was aware of all the options


6
    SSA OIG, Customer Service Issues at the Dover Hearing Office (A-12-08-28080), October 2008, p. 14.
7
    Id.
8
 GAO, SSA Disability Decision Making: Additional Measures Would Enhance Agency's Ability to Determine
Whether Racial Bias Exists (GAO-02-831), September 2002, pp. 17-18.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                     2
for filing a complaint against an ALJ to identify improper behavior, including racial
discrimination. We also could not determine the reliability of the ALJ/PAMC system because
DQS did not have documentation to support some of the data, initial data input was not uniform,
and some key data fields were left blank. Finally, at the time of our review, DQS was not
sharing ALJ/PAMC system management information (MI) with internal or external parties,
though DQS was planning to share more information with the ROs as well as grant them access
to the system.

ALJ Complaint Processing Trends
We analyzed cases DQS closed in FY 2011 9 to understand the workload for that year. 10 The
ALJ/PAMC system indicated 1,390 pending ALJ complaints at the start of FY 2011. During
FY 2011, DQS received an additional 1,189 ALJ complaints and closed 1,490 ALJ complaints, 11
leaving DQS with a pending workload of 1,089 ALJ complaints at the end of the FY
(see Table 1). 12

                    Table 1: FY 2011 DQS Workload in the ALJ/PAMC System
                                                                               Number of ALJ
                                 Complaint Status
                                                                                Complaints
                Beginning Balance                                                 1,390
                Receipts                                                          1,189
                Closed                                                            1,490
                Ending Balance                                                    1,089

Complaints Per ALJ
We reviewed the ALJs associated with the FY 2011 complaints maintained in the ALJ/PAMC
system and identified 594 different ALJs associated with the 1,490 closed complaints. 13 These



9
 FY 2011 was the latest full FY in the ALJ/PAMC system at the time of our review. We obtained the ALJ/PAMC
data as of April 20, 2012.
10
  Later in the report, we discuss data quality issues that affect the information provided in this section. We also
note the data issues in this section, as appropriate.
11
  To “close” a case, DQS has generally made a determination about the merits of the complaint and recommended
the appropriate management response, if any. In other cases, DQS will close a case without determining its merits if
the ALJ is no longer with the Agency.
12
  DQS processed incoming complaints using a first-in/first-out method, though it makes exceptions for critical
cases, such as dire need situations.
13
  Approximately 1,500 ALJs decided cases in FY 2011. While a complaint may be closed in FY 2011, it could
relate to a different period.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                                  3
594 ALJs had between 1 and 33 closed complaints (see Figure 1). Thirteen ALJs (2 percent) had
more than 10 complaints among those closed in FY 2011. 14

                      Figure 1: Number of Complaints Per ALJ Among 594 ALJs
                                      (FY 2011 Closed Cases)

                              ALJs with 6 to                                      ALJs with more
                              10 complaints                                           than 10
                                   6%                                               complaints
                                                                                        2%




                                                                                        ALJs with 1
                ALJs with 2 to 5                                                         complaint
                  complaints                                                               50%
                     42%




Timeliness of Complaint Processing
We reviewed the time it took ODAR to process the 1,490 closed complaints in FY 2011 using
the available dates in the ALJ/PAMC system and calculated the following. 15

•      The median time for ODAR to process a complaint, from the date of the ALJ hearing 16 to the
       date DQS closed the case, was 894 days, since the AC processed the majority of the cases
       before DQS could initiate its own review. If the complaint is part of an AC appeal, the
       complaint will be processed after the AC refers the complaint to DQS. 17




14
     We provide additional details about three of the ALJs in Appendix C.
15
     See Appendix D for more information on our timeliness calculations.
16
  We used the date of initial hearing with the ALJ to determine the approximate date the complaint was filed since
the ALJ/PAMC system did not always record the first date SSA received the complaint. We note this issue later in
the report. Using the hearing date will add additional days to the processing time since the complaint would
generally be filed sometime after the hearing.
17
  In FY 2012, the average processing time for an appealed case was 395 days. We are conducting a separate audit
of appeals processing at the AC. In addition, the AC may identify ALJ conduct that it determines warrants referral
to DQS even if a claimant has not alleged it or filed a request for review with the AC.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                                 4
•    The median time for DQS to process a complaint, from the date DQS received the case to the
     date it closed the case, was 400 days. 18

•    The median time for an RO to investigate a complaint, from the date DQS referred the
     complaint to the RO to the date the RO shared its findings, was 201 days, with regional
     median processing times ranging from 55 to 461 days.

The DQS manager added that the variance in RO processing time might relate to the size of the
region and the number of staff available to work the investigations. 19 We excluded
approximately 57 percent of the RO cases from our RO median time calculation because key
processing dates were missing. 20 When we asked about the lack of RO processing dates in the
system, a DQS manager explained that these missing dates might have related to high employee
turnover in DQS. In FY 2011, DQS employed detailees for short periods of approximately
4 months to assist with the complaint workload. 21

Timeframes for Reviewing Cases

During our audit, DQS was in the process of establishing timeframes for reviewing and resolving
ALJ complaint cases. SSA established the DQS process to ensure “Every complaint will be
reviewed or investigated in a timely manner by an official who was not involved in the alleged
improper conduct.” 22 The ALJ/PAMC system, as the primary system for monitoring these
complaints, should identify delays in the process and notify appropriate managers. At the start of
our review, DQS management told us the Agency had not established timeframes for reviewing
and resolving complaints at every stage. However, during our review period, a DQS manager
told us her office created its first report showing the age of pending complaints for internal use
by DQS managers. In addition, this manager explained that DQS started tracking cases that were
1-year-old or older from the time DQS received them. DQS established a goal to close
60 percent of the year-old cases by the end of FY 2013.




18
  DQS management noted that the component had additional temporary staff addressing a backlog of older cases
that may have led to cases showing a longer median processing time. DQS management stated the ALJ/PAMC data
shows median processing time in FY 2012 to be about 278 days.
19
  When we contacted RO managers, we learned the ROs had assigned from two to five individuals to process and
investigate ALJ public complaints.
20
 It is possible the RO statistics would be different if the processing dates were available for all cases. See
Appendix D for more on these calculations.
21
  In commenting on our preliminary findings, DQS management stated the component hired a staff member who
will focus on ALJ/PAMC data quality and reporting of information to the ROs. See Appendix D for more on RO
processing.
22
  Notice of Procedures: Social Security Administration Procedures Concerning Allegations of Bias or Misconduct
by Administrative Law Judges, 57 Fed. Reg. 49186 (October 30, 1992).


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                             5
DQS also formalized a similar policy on the appropriate length of time for an RO to process a
complaint case. Under the new policy, the ROs have 90 days from the date DQS requests further
investigation to provide it with an investigative report with finding(s) and recommendation(s).
To improve monitoring of RO timeliness, DQS will need to ensure the RO-related dates are
being input before the ALJ/PAMC system can be a reliable tool for identifying RO case delays.
As we noted earlier, some key data elements were missing from the system related to the
regional transactions, such as the date the ROs sent recommendations to DQS, thereby reducing
the usefulness of any new monitoring and alerts related to regional performance. 23

Since we initiated our review, DQS updated the ALJ/PAMC system to require that certain key
data be recorded before a case can be closed, though the system does not require the missing RO
processing dates. DQS noted it could not make this field mandatory since only a portion of cases
were sent to the ROs for investigation. In addition, DQS informed us it was providing the ROs
with aged case reports and was planning to allow them access to the ALJ/PAMC system, which
should assist the ROs in managing this workload and potentially resolve the data integrity issues.
Again, the success of DQS’ monitoring is dependent on the quality of the underlying data.

Outcomes of Complaint Processing
For FY 2011 closed complaint outcomes maintained in the ALJ/PAMC system, DQS
substantiated 24 66 (4.4 percent) of the complaints associated with 43 different ALJs
(see Figure 2). 25 In all these cases, management counseled the ALJs, and in one case,
management administered a reprimand. 26




23
 ROs expressed interest in obtaining more information from DQS on the status of complaint processing. See
Appendix D for their comments.
24
     Substantiating a complaint means DQS found the allegation had merit.
25
     Of the 43 ALJs, 34 had 1 complaint, 7 had 2 to 5 complaints, and the remaining 2 had 6 to 10 complaints.
26
  The ALJ/PAMC system also indicated that DQS is coordinating with SSA’s Office of the General Counsel on one
of the cases.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                            6
                                   Figure 2: DQS Findings on 1,490 FY 2011 Closed Cases



                                                                                                            1,187
                         Allegations Not Substantiated



                                                                   159
           DQS Finding




                         ALJ No Longer with Agency



                             Allegations Substantiated       66



                                                             78
                                      Field Left Blank


                                                         0   200         400   600   800      1000   1200
                                                                     Number of Closed Cases


SSA closed 159 (10.7 percent) of the 1,490 FY 2011 cases because 75 ALJs associated with
these cases were no longer with the Agency. 27 The reasons for the ALJ departures varied. For
example, we reviewed one case DQS closed because the ALJ had retired. The ALJ held a
hearing with the claimant in August 2007, and on December 2010 (3 years later), DQS closed the
complaint before fully investigating the allegation because the ALJ had retired. We reviewed
another case where 22 closed complaints related to 1 ALJ were labeled as ALJ No Longer With
Agency after the ALJ was removed from the Agency because of improper behavior. 28

Within ALJ/PAMC system, 78 (5.2 percent) of the 1,490 cases had no entry in the decision field.
When we spoke to a DQS manager about the blank fields, she stated the fields were not required
to close out an ALJ complaint case, though the ALJ/PAMC system was updated in 2012 to
require this input. Blank decision fields reduce the value of any MI shared with internal or
external parties.

DQS categorized each case using 11 complaint categories (see Table 2). Of the 66 substantiated
complaints, about 68 percent related to “Unfair treatment/misconduct during the hearing,”
followed by about 9 percent of the complaints pertaining to “Unfair treatment/misconduct in the
written decision” (see Figure 3).




27
  Of the 75 ALJs, 48 had 1 complaint, 22 had 2 to 5 complaints, 4 had 6 to 10 complaints, and 1 ALJ had
22 complaints.
28
     See ALJ#3 in Appendix C.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                                7
                       29
                            Table 2: ALJ/PAMC System Basis for Complaint Codes
                                                  Basis for Complaint
 1.    Bias against all claimants                 7. Religion
 2.    Bias against this claimant                 8. Sexual orientation
 3.    Gender-related                             9. Unfair treatment/misconduct during the hearing
 4.    General bias                               10.Unfair treatment/misconduct in the written decision
 5.    No valid complaint stated                  11. Other
 6.    Race/ethnicity/national origin

                   Figure 3: Basis for Complaint Among 66 FY 2011 Closed Cases



                                   General bias               Other
                                        5%                     4%
                            Bias against this
                               claimant
                                  6%
               Bias against all
                 claimants
                     8%
             Unfair treatment/
             misconduct in the
             written decision
                    9%
                                                                                             Unfair
                                                                                          treatment/
                                                                                          misconduct
                                                                                          during the
                                                                                         hearing 68%



System Information and Reports for Interested Parties
We reviewed the ALJ/PAMC system to determine whether DQS (1) designed the system to
capture all key data associated with the complaint, (2) maintained support for data in the system,
and (3) ensured the data represented a uniform timeframe. We also reviewed the availability and
distribution of MI reports for interested parties.




29
     As we note later in the report, the ALJ/PAMC cannot categorize a case under more than one code.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                       8
Key ALJ Complaint Data Fields
We identified several areas where DQS could enhance the identifiers in the ALJ/PAMC system
to improve the amount and quality of available management information. At the time of our
review, the system was capturing key information, including

•      information about the complainant and related parties,

•      the ALJ associated with the complaint,

•      the status of actions taken to investigate the complaint,

•      the findings of the investigation, and

•      the recommended action to resolve the complaint.

However, the ALJ/PAMC system was not capturing (1) the date the complainant first filed the
complaint with the Agency (as well as the date of the event that generated the complaint, such as
the hearing date); (2) the component that initially received the complaint; and (3) more than one
“basis for complaint” if several issues were involved.

For example, we found complaint cases where more than one “basis for complaint” code was
appropriate. 30 In our review of 45 sample cases, we found a case where the basis for complaint
was listed generically as “bias against this claimant” in the ALJ/PAMC system, whereas in our
review of the paper documents in the case folder, we determined DQS could have also coded this
case as “gender-related.” DQS management said the database captures only one primary
description of the complaint, though staff may add more descriptions about the case in the
remarks field. However, we did not see any reference to a gender-related complaint in the
remarks section associated with this case.

Part of the ALJ/PAMC system’s purpose is to assist with the management of complaints as well
as identify patterns of improper behavior. 31 Moreover, as noted earlier, a prior GAO report found
SSA lacked useful mechanisms for detecting patterns of possible racial discrimination. 32 The
inclusion of more than one “basis for complaint” could assist in the detection of such patterns. In
our discussions on this point, DQS management said they agreed that expanding the number of
complaint bases would enhance the ability of the ALJ/PAMC system to identify problematic
patterns.




30
     See Table 2 for a list of “basis for complaint” codes.
31
     Administrative Law Judge/Public Alleged Misconduct Complaints System, 75 Fed. Reg. 8171 (February 23, 2010).
32
     GAO, supra note 8.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                           9
SSA also maintains a separate process to track complaints related to civil rights issues such as
race and gender under its Office of General Counsel (OGC). Under its recently updated policy, 33
SSA states, “Individuals who allege discrimination based on their race, color, national origin
(including English language ability), religion, sex, sexual orientation, age, disability, or in
retaliation for having previously filed a civil rights complaint, may also file a separate
discrimination complaint with us using our civil rights complaint process.” 34 However, we did
not find any mention of this OGC civil rights complaint process in SSA’s publication How to
File an Unfair Treatment Complaint Concerning an Administrative Law Judge, 35 which states,
“We do not treat you differently because of your race, sex, age or for disability, the amount of
money you have, or for any other reason.” The publication goes on to describe the roles of the
Appeals Council and DQS’ ALJ complaint process but is silent on the OGC process available to
complainants. We believe the Agency’s acknowledgement of the OGC civil rights process on
this same and/or similar publications would ensure the public was aware of all the options for
filing a complaint against an ALJ and go further to ensure SSA management can detect patterns
of improper behavior, including racial discrimination. 36

Support for ALJ Complaint Data
We selected a sample of 45 DQS cases to review related paper folders containing the complaint
documentation to assess the completeness of the folders. We limited our review to 42 of the
cases because DQS could not locate 3 sample case folders. 37 At the time of our review, 33 of the
42 cases were closed, and the remaining 9 cases were pending. After reviewing the folder
documentation, we determined numerous key documents were missing. 38 For example, folders
for 8 (42 percent) of 19 cases referred to the RO did not include an RO investigation report, and
10 (30 percent) of 33 case folders did not contain the DQS case summaries. As a result, we were



33
  SSA, SSR 13-1p: Titles II and XVI: Agency Processes For Addressing Allegations of Unfairness, Prejudice,
Partiality, Bias, Misconduct, or Discrimination by Administrative Law Judges (ALJs)(Effective February 28, 2013);
78 Fed. Reg. 6168 (January 29, 2013); and Corrections 78 Fed. Reg. 9987 (February 12, 2013) and 78 Fed. Reg.
22361 (April 15, 2013).
34
  78 Fed. Reg. 6168, 6169 (January 29, 2013). According to the SSR, an individual may file a discrimination
complaint alleging discrimination by an ALJ by using Form SSA–437–BK (available at
http://www.socialsecurity.gov/online/ssa-437.pdf). However, an individual is not required to use this form and may
make a complaint with a letter that contains the same information. The discrimination complaint must be filed
within 180 days of the alleged discriminatory action unless SSA finds there is good cause for late filing.
35
     SSA Publication No. 05-10071, March 2013. See Appendix E for a copy of the document.
36
  In our October 2008 report on customer service issues at the Dover hearing office, we also identified issues with
SSA’s public information related to complaints against ALJs. See SSA OIG, Customer Service Issues at the Dover
Hearing Office (A-12-08-28080), October 2008, p. 14.
37
   The three missing folders were the oldest among our sample cases. DQS closed these cases from 2004 and 2005
in late 2010.
38
     See Appendix F for the complete results.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                              10
unable to determine whether the information in the ALJ/PAMC system was consistent with
underlying events and decisions.

In responding to our findings, DQS management stated all the relevant documents related to the
complaint case were supposed to be in the paper complaint folder. However, DQS could not
provide written procedures identifying the documents that needed to be maintained. 39 Although
DQS has a business process to handle complaints, DQS would also benefit from written
procedures and related controls that address document retention. Written policy is particularly
important since DQS has experienced high staff turnover in the past.

Age of ALJ Complaint Data
We were unable to determine the completeness of the ALJ/PAMC system. 40 We learned that
when DQS implemented the ALJ/PAMC system in March 2010 it did not establish consistent
criteria on the age of the closed cases that would be entered into the system.

ODAR staff told us the system maintained pending ALJ complaints from October 2009 forward,
so cases closed before October 2009 would likely not be in the ALJ/PAMC system. However,
we reviewed system data and found closed ALJ complaint cases dated from as early as July 2004
in the ALJ/PAMC system. DQS managers told us they assigned each employee an ODAR
region, and these employees determined the volume of closed complaints they would input to the
system based on available time. Since the ALJ complaint cases in the ALJ/PAMC system lacked
a uniform closed case cut-off, ALJs from one region may have a longer history of complaints in
the ALJ/PAMC system than ALJs in other regions. A uniform starting point would have ensured
greater consistency in the ALJ complaint data when tracking patterns of ALJ bias and
misconduct.

MI for Internal and External Parties
At the time of our review, DQS was not generating MI reports for internal or external parties 41 to
track bias and misconduct patterns among the ALJ complaints. Moreover, as already noted,




39
  DQS staff stated the retention period for complaint documentation was 7 years after closing the case. However,
when we contacted RO managers in all 10 ODAR regions, we learned the ROs retained the ALJ complaint
documentation from 3 years to “indefinitely.” Any DQS guidelines on ALJ complaint documentation should also
clarify the retention period.
40
     We discussed other completeness issues earlier in the report as well.
41
  According to the Fed. Reg., outside parties include the Office of the President; a congressional office; the
Department of Justice; the Equal Employment Opportunity Commission; the Federal Labor Relations Authority; the
Office of Personnel Management; the General Services Administration; the National Archives and Records
Administration; Federal, State, and local law enforcement; Federal, State, and local professional licensing boards;
and officials of labor organizations. Administrative Law Judge/Public Alleged Misconduct Complaints System,
75 Fed. Reg. 8171, 8171 – 8173 (February 23, 2010).


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                               11
missing and incomplete data fields have reduced the value of the ALJ/PAMC system to SSA
managers and outside parties.

SSA established the ALJ/PAMC system in part to, “Provide [SSA] with information to…monitor
and improve customer service...” as well as “Provide [SSA] with management information to
document, monitor, and track complaints about ALJs, to identify patterns of improper ALJ
behavior that may require further review and action, and to assist [SSA] in deterring recurring
incidents of ALJ bias or misconduct.” 42 The lack of MI and related monitoring, as well as the
absence of key data within the ALJ/PAMC system, reduced ODAR’s ability to (1) identify
patterns of improper ALJ behavior alleged by the public and (2) create polices and related
training to deter recurring incidents. DQS will need to ensure data fields are available and
properly completed, such as inputting DQS decisions on all closed cases and identifying all bases
for complaints, before the ALJ/PAMC system will be a reliable tool for identifying misconduct
patterns.

CONCLUSIONS
Using the available data, we determined the median time for ODAR to process an ALJ
misconduct complaint in FY 2011 was about 894 days since the AC processed the majority of
the cases before DQS could initiate its own review. DQS’ median processing time in FY 2011
was about 400 days, and DQS noted processing time improved in FY 2012. The ALJ/PAMC
system lacked sufficient milestones and related data to track processing issues in ODAR. About
4.4 percent of the ALJ complaints was substantiated in FY 2011, though another 11 percent of
the cases was never fully reviewed because the ALJ left the Agency before a review of the issue
could be completed. About 5 percent of the decision fields were left blank in the system.

In terms of the ALJ/PAMC system, we determined it was not capturing key data on ALJ
complaints that could assist Agency managers responsible for addressing ALJ complaints and
improving customer service. In addition, we could not determine the reliability of the
information in the ALJ/PAMC system because DQS lacked documentation to support system
entries, staff did not uniformly input the initial data entry into the system, and staff left various
key fields blank. Finally, at the time of our review, DQS was not sharing ALJ/PAMC system MI
with internal or external parties, nor did the system contain milestones to track processing delays,
though DQS was taking steps in both of these areas.

RECOMMENDATIONS
To enhance the use of the ALJ/PAMC system, including providing adequate management
information to monitor trends and patterns, we recommend SSA:




42
     Id. at p. 8171.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)              12
1. Create written procedures and related controls to ensure staff enter required data in the
   ALJ/PAMC system and maintain adequate support for the required periods.

2. Modify the ALJ/PAMC system to ensure all key information related to the complaint,
   including all bases for complaints, are captured in such a way to assist with management
   information reporting.

3. Ensure information on OGC’s civil rights complaint process is shared with the public when
   discussing the ALJ public complaint options, which may include adding OGC civil rights
   language to the publication How to File an Unfair Treatment Complaint Concerning an
   Administrative Law Judge.

4. Create MI reports for components responsible for resolving ALJ complaints and preventing
   recurring problems, which may include ODAR, OGC, and ROs.

5. Review and resolve data quality issues identified in this report to enhance the quality of the
   ALJ/PAMC system.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix G for the full text of SSA’s
comments.




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                13
                                         APPENDICES




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)
Appendix A — ADMINISTRATIVE LAW JUDGE COMPLAINT
            PROCESS FLOWCHART




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)   A-1
Figure Notes
1. Complaints can be filed with a number of parties, including the Appeals Council (AC),
   Office of the Inspector General (OIG), Regional Office (RO), Division of Quality Service
   (DQS), other Social Security Administration (SSA) components, and congressional offices
   on behalf of constituents.

2. The AC may identify ALJ conduct that it determines warrants referral to DQS even if a
   claimant has not alleged misconduct or filed a request for review with the AC.

3. DQS staff will also send an acknowledgment letter to the complainant if the complaint was
   received directly from the public. If the RO received the case directly from the public, the
   RO will send an acknowledgment letter to the complainant. No acknowledgment letter is
   sent for cases initially received by the AC since the AC will have already acknowledged
   receipt.

4. DQS staff will review the complaint and determine whether an RO investigation is necessary.
   If DQS staff determines the complaint does not require an RO investigation, DQS or RO
   notifies the ALJ of the complaint and the case is closed. If DQS staff determines the
   complaint requires further review, DQS sends a memorandum to the RO requesting an
   investigation of the complaint. The RO will notify the ALJ of the complaint and provide the
   ALJ an opportunity to respond. If the complaint came directly from the public and DQS staff
   determine the complaint is unclear, DQS sends a letter to the complainant providing him/her
   with the opportunity to submit specific allegations within 30 calendar days.

5. If DQS receives no additional information within 30 calendar days from the complainant, it
   closes the case. If DQS receives sufficient additional information within 30 calendar days, it
   makes a new determination on the new evidence.

6. For cases that require investigation, the RO notifies the ALJ associated with the complaint to
   provide him/her with an opportunity to comment on the complaint.

7. DQS reviews the recommendation and provides the RO with a closeout memorandum
   disclosing the final decision on the case.

8. DQS sends a close-out letter to the claimant or claimant representative if DQS received the
   case from the public. A letter is not required if the case originated with the AC. If the RO
   received the case from the public, it will send an acknowledgement and closing letter to the
   complainant.




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)          A-2
Appendix B — SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•   Reviewed the applicable Federal laws and regulations, as well as the Social Security
    Administration’s (SSA) policies and procedures, to gain an understanding of the Office of
    Disability Adjudication and Review’s (ODAR) Administrative Law Judge/Public Alleged
    Misconduct Complaints (ALJ/PAMC) system and the ALJ complaint process.

•   Reviewed the Division of Quality Service’s (DQS) business process for handling ALJ
    bias/misconduct complaints.

•   Interviewed ODAR staff and managers to discuss the ALJ/PAMC system and the ALJ
    complaint process.

•   Interviewed the Office of Appellate Operations (OAO) staff and managers to discuss OAO’s
    role in the ALJ/PAMC process.

•   Obtained a file from DQS containing the 3,709 ALJ complaint cases maintained in the
    ALJ/PAMC system as of April 20, 2012. We selected 45 random sample transactions from
    the ALJ/PAMC system and attempted to locate the ALJ complaint paper folders associated
    with these cases to determine whether the information in the folders was accurately posted to
    the system. We provide our sample findings in Appendix F.

•   Sent a questionnaire to managers in all 10 ODAR regions to gain an understanding of how
    they handled ALJ public complaints and what they thought about the complaint process and
    ALJ/PAMC system.

•   Reviewed publicly available information related to the ALJ complaint process to assess the
    amount of information the Agency was sharing.

We found the ALJ/PAMC system data were not sufficiently reliable to meet our objective, which
we explain in the body of the report. We conducted our audit at the Office of Audit in Chicago,
Illinois, between March and December 2012. The principle entity audited was the Office of the
Deputy Commissioner for Disability Adjudication and Review. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)            B-1
Appendix C — CASE CHARACTERISTICS OF THREE
            ADMINISTRATIVE LAW JUDGE COMPLAINT
            CASES
In our review of the number of complaints closed by the Division of Quality Service (DQS) in
Fiscal Year (FY) 2011, we identified 13 administrative law judges (ALJ) with more than
10 closed complaints (see Table C–1). Below, we discuss the case characteristics of the 3 ALJs
with 25 or more complaints.

              Table C–1: ALJs with More Than 10 FY 2011 Closed Complaints
                       ALJ                  SSA Region            Number of Complaints
                      ALJ 1                  New York                          33
                      ALJ 2                  New York                          28
                      ALJ 3                   Atlanta                          25
                      ALJ 4                  New York                          24
                      ALJ 5                  New York                          24
                      ALJ 6                  New York                          20
                      ALJ 7                San Francisco                       19
                      ALJ 8                 Philadelphia                       14
                      ALJ 9                  New York                          13
                      ALJ 10                  Seattle                          12
                      ALJ 11               San Francisco                       11
                      ALJ 12               San Francisco                       11
                      ALJ 13                Philadelphia                       11
               Note: Some complaints closed in FY 2011 related to prior FYs.




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)        C-1
ALJ 1 - Case Characteristics
This ALJ had 33 closed complaints in FY 2011. Per DQS, 29 of the allegations were
unsubstantiated, though the ALJ/PAMC data noted such comments as, “ALJ used inappropriate
remarks but did not rise to the level of bias.” The ALJ/PAMC did not record any results on the
remaining four cases—the decision field was blank. 1 In comments associated with these four
cases, the AC concluded that the ALJ’s behavior was inappropriate or biased against the clamant.
While the 33 complaints related to FYs 2003 through 2006, DQS did not close these complaints
until early FY 2011. 2

ALJ 2 - Case Characteristics
This ALJ had 28 closed complaints in FY 2011. Per DQS, 27 of the allegations were
unsubstantiated. The ALJ/PAMC system did not record a result for the remaining case. 3 In
comments associated with this case, the AC concluded that the ALJ “. . . made derogatory
statements towards the claimant.” The 28 complaints were made between FYs 2000 and 2010,
and DQS closed these complaints in FY 2011. At the time of our review, this ALJ was still
working for the Agency.

ALJ 3 - Case Characteristics
This ALJ had 25 closed complaints in FY 2011. The ALJ/PAMC decisions on 22 cases were
listed as ALJ No Longer With Agency. Of the remaining three complaints, one was
unsubstantiated, one was blank, 4 and one was substantiated, requiring that the ALJ be counseled.
This ALJ was removed from the Agency because of (1) failure to follow instructions; (2) failure
to follow a direct order to treat his coworkers and the public with courtesy; (3) conduct
unbecoming an ALJ; and (4) failure to follow a direct order to conduct scheduled hearings. A
DQS manager explained that DQS had to put complaints against this ALJ aside for
approximately 2 years while the ALJ was on administrative leave. The manager added DQS was
not allowed to contact the ALJ while he was away from the Agency.




1
 We spoke to DQS management about the blank fields and we were informed that these fields were not required to
close out an ALJ complaint case, though the ALJ/PAMC system was updated in 2012 to require this input.
2
    DQS closed these complaints between November 30 and December 1, 2010.
3
    See Footnote 1.
4
    Id.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                       C-2
Appendix D — TIMELINESS OF COMPLAINT PROCESSING IN
            FISCAL YEAR 2011
We analyzed 1,490 cases closed by the Division of Quality Service (DQS) in Fiscal Year (FY)
2011 1 to determine the number of days the Office of Disability Adjudication and Review
(ODAR), DQS, and regional offices (RO) needed to close cases.

Office of Disability Adjudication and Review Case Processing in FY 2011
We reviewed the amount of time it took the ODAR to process a case, from the date of the
administrative law judge (ALJ) hearing to the date closed by DQS. 2 Using the data in the
Administrative Law Judge/Public Alleged Misconduct Complaint (ALJ/PAMC) system, we
calculated a median processing time of about 894 days. 3 As shown in Figure D–1, of the cases
closed in FY 2011, DQS closed about 30 percent more than 1,200 days after the hearing. The
ALJ/PAMC system indicated that about 75 percent of the complaints was initially sent to the
Appeals Council (AC). 4 Cases originating with the AC tend to take longer to process because
DQS does not receive the complaint until the AC determines that a complaint exists and
forwards it to DQS for processing.




1
    This was the latest full FY in the ALJ/PAMC system at the time of our review.
2
  We used the date of initial hearing with the ALJ to determine the approximate date the complaint was filed since
the ALJ/PAMC system did not always record the date SSA received the complaint. We noted this issue earlier in
the report. Using the hearing date will add additional days to the processing time since the complaint would
generally be filed after the hearing.
3
    We excluded 26 closed cases that had no date of hearing.
4
  It appeared that 1,108 of the 1,464 closed cases in FY 2011 were from the AC. However, we also noticed that
58 (16 percent) of the 356 cases marked “No” or blank in the “AC Referral” field contained other information
indicating these cases started at the AC.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                             D-1
                                         Figure D–1: Number of Days for ODAR to Close a Case in FY 2011
                                                              (1,464 Closed Cases)

               Number of Days to Process Complaint

                                                     1201 days or more                                                  437


                                                      901 to 1200 days                                  287


                                                       601 to 900 days                                            384


                                                       301 to 600 days                                    301


                                                         1 to 300 days          55


                                                                         0       100      200      300      400           500
                                                                                       Number of Complaints

          Note:                                      We calculated the number of days from the date of hearing to the date DQS closed the case.

We reviewed one of the cases that took almost 1,000 days to process (from the hearing date)
before it was closed. The hearing occurred in December 2008, and the claimant’s attorney filed
a complaint in May 2009 with the AC about an “unfair hearing.” The RO was asked to
investigate the issue in September 2010. RO staff did not find support for the allegation and
recommended in November 2010 that DQS close the case as unsubstantiated. DQS agreed and
closed the case 9 months later in August 2011. From the records we reviewed, it was not clear
why it took DQS approximately 9 months to close this case.

DQS Case Processing in FY 2011
We reviewed how long it took DQS to process the 1,490 cases closed in FY 2011 and found the
median time was approximately 400 days from the date DQS received the case to the date it
closed the case. 5 As shown in Figure D–2, approximately 35 percent of the cases took more than
720 days to process.




5
    We excluded nine closed cases that showed DQS closed the case before it received the case.


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                                                              D-2
                                                  Figure D–2: Number of Days for DQS to Close a Case in FY 2011
                                                                      (1,481 Closed Cases)

            Number of Days to Process Complaint
                                                  901 days or more                                     388


                                                   721 to 900 days                   134


                                                   541 to 720 days             101


                                                   361 to 540 days                    152


                                                   181 to 360 days                          270


                                                     1 to 180 days                                           436


                                                                     0   100       200      300      400       500
                                                                                Number of Complaints


Note:   We calculated the number of days from the date DQS received the case to the date DQS closed the case.

RO Case Processing in FY 2011
Using ALJ/PAMC system data, we determined that 399 (27 percent) of the 1,490 cases closed in
FY 2011 were sent to the RO for further investigation. Because of missing or erroneous RO
return dates in the ALJ/PAMC system, we excluded 227 (57 percent) of the 399 cases when
calculating the median time. Among the remaining cases, the median time for RO investigation
of a complaint, from the date the RO received the case to the date the RO sent a recommendation
to DQS, was about 201 days. The median range for all 10 ROs was between 55 and 461 days.
However, our review of the RO dates in the ALJ/PAMC system determined that 7 of the 10 ROs’
cases lacked RO return dates more than 50 percent of the time, limiting our ability to calculate a
meaningful median processing time for these cases (see Table D–1).




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                                 D-3
                Table D–1: Available Dates Among FY 2011 ALJ/PAMC System
                       ALJ Complaint Cases from the Regional Offices
                                 (399 FY 2011 Closed Cases)
                                                                                 Percent of Cases with
                            Number of Cases
                                                     Number of Cases            Sufficient Information to
      SSA Region               Sent for
                                                     with Both Dates              Calculate a Median
                             Investigation
                                                                                    Processing Time
    Boston                           13                        8                           61.5%
    New York                         19                        9                           47.4%
    Philadelphia                     63                       35                           55.6%
    Atlanta                          65                       29                           44.6%
    Chicago                          60                       25                           41.7%
    Dallas                           48                        4                            8.3%
    Kansas City                      16                        4                           25.0%
    Denver                           12                        5                           41.7%
    San Francisco                    91                       53                           58.2%
    Seattle                          12                        0                              0%
    Totals                          399                       172                            43%

We contacted staff at all of the ROs concerning the ALJ/PAMC system to learn more about RO
processing of ALJ complaint cases. DQS told us the ROs lacked access to the ALJ/PAMC
system, and all 10 ROs confirmed this lack of access, with 3 ROs stating they were not aware
DQS had such a system. One RO stated it would like to have the ability to run reports on
pending and closed cases. A second RO stated it would be helpful to receive monthly or
quarterly reports of pending cases from DQS so they could compare records, whereas a third RO
stated it was interested in learning more about the types of referrals to DQS and their disposition
by hearing office. At the time of our review, ROs were not using the ALJ/PAMC system to
check their workloads and identify missing or incorrect data elements.

When rating the ALJ complaint process, two ROs were dissatisfied, with one RO stating it would
like to receive timely concurrence on complaints that have remained open long after the RO has
completed its investigation and sent a recommendation to DQS. 6 In our discussion with DQS
managers, we learned DQS was planning to provide ROs with (1) processing timelines, (2) aged
case reports, and (3) access to the ALJ/PAMC system. This access would be limited to data
fields specific to each RO. It is possible that periodic reconciliations of ALJ/PAMC RO counts
with the ROs, as well as RO access to its own information, could resolve some of the issues we
identified.




6
 The second RO stated that “many ‘complaints’ are not complaints at all. DQS’ overly simplistic criteria/system for
picking these cases needs to be replaced with a more reasonable way of identifying actual complaints.”


Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                           D-4
Appendix E — HOW TO FILE AN UNFAIR TREATMENT
            COMPLAINT CONCERNING AN
            ADMINISTRATIVE LAW JUDGE




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)   E-1
Appendix F — REVIEW OF SAMPLE ADMINISTRATIVE LAW
            JUDGE COMPLAINTS
We reviewed the data recorded in a sample of Administrative Law Judge/Public Alleged
Misconduct Complaints (ALJ/PAMC) system case folders maintained by the Division of Quality
Service (DQS). We found that DQS maintained case folders for 42 of the 45 sample cases. DQS
could not locate 3 of the 45 case folders. See Table F–1 for the results of our review of the
42 cases.

    Table F–1: Results of Testing 42 Closed Sample Cases from the ALJ/PAMC System
                              33 Closed Sample Cases from the ALJ/PAMC
                                                                                    Number
                                                                    Number                           Percent
                                                                                    of Forms
                         Documents                                  of Cases                           Not
                                                                                       Not
                                                                     Tested                          Located
                                                                                    Located
 Copy of Original Complaint                                33                            3               9%
 Acknowledgement Letter to the Complainant1                13                           3               23%
 ALJ Notification of the Complaint                         33                           24              73%
                         2
 RO Investigation Report                                   19                           8               42%
                          3
 DQS Analysis/Summary                                      33                           10              30%
 ALJ Notification of DQS Decision                          33                           30              91%
                                             4
 DQS Closeout Letter to Regional Office (RO)               33                           19              58%
                                    1, 4
 Closeout Letter to the Complainant                        13                           3               23%
                            9 Open Sample Cases from the ALJ/PAMC5
 Copy of Original Complaint                                 9                            4              44%
                                           1
 Acknowledgement Letter to the Complainant                  6                            5              83%
 ALJ Notification of the Complaint                          9                            8              89%
Note 1: Only applies to complaints received directly from the public.
Note 2: We are providing results only on cases sent to the RO for investigation based on information available in
        the ALJ/PAMC database. The ALJ complaint receipt dates ranged from 2007 to early 2012.
Note 3: The ALJ complaint receipt dates ranged from 2007 to 2011.
Note 4: DQS noted that these close-out letters were added to the process in the last 2 years.
Note 5: For the nine open cases, we focused on those forms that should have been available at the start of the
        investigation. Everything but the three documents listed above were unavailable because these nine cases
        were still in process at the time of our review.




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)                           F-1
Appendix G – AGENCY COMMENTS




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)   G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ADMINISTRATIVE LAW JUDGE PUBLIC ALLEGED MISCONDUCT
COMPLAINTS SYSTEM” (A-05-11-01131)

Recommendation 1

Create written procedures and related controls to ensure staff enter required data in the
Administrative Law Judge/Public Alleged Misconduct Complaints (ALJ/PAMC) system and
maintain adequate support for the required periods.

Response

We agree. We have taken steps to ensure we input all required data into the ALJ/PAMC system
and maintain adequate support to keep the system accurate. We will include ALJ/PAMC system
user responsibilities in a business process document. In addition, we are creating a checklist to
include with each paper file so an employee can indicate which supporting documents are
included in the file, along with space for relevant comments. Our goal is to finalize the written
procedures and checklist by July 2013.

Recommendation 2

Modify the ALJ/PAMC system to ensure all key information related to the complaint, including
all bases for complaints, are captured in such a way to assist with management information (MI)
reporting.

Response

We agree. We are in the process of making modifications to the ALJ/PAMC system to ensure
we report all key information. For example, we will expand a data field to capture all bases for a
complaint, and we will include a data field to capture the source of the complaint.

Recommendation 3

Ensure information on the Office of the General Counsel’s (OGC) civil rights complaint process
is shared with the public when discussing the ALJ public complaint options, which may include
adding OGC civil rights language to the publication How to File an Unfair Treatment Complaint
Concerning an Administrative Law Judge.

Response

We agree. We will revise the publication, How to File an Unfair Treatment Complaint
Concerning an Administrative Law Judge, to include the civil rights discrimination complaint
process.




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)           G-2
Recommendation 4

Create MI reports for components responsible for resolving ALJ complaints and preventing
recurring problems, which may include the Office of Disability Adjudication and Review
(ODAR), OGC, and regional offices (RO).

Response

We agree. We are providing reports on aged cases to ODAR RO staff on a monthly basis. We
also regularly review reports of ALJ complaint cases pending in all regions for workload
management purposes. After we make modifications to the ALJ/PAMC system, we will provide
our ODAR ROs access to the complaints pending in the respective regions.

Recommendation 5

Review and resolve data quality issues identified in this report to enhance the quality of the
ALJ/PAMC system.

Response

We agree. We periodically review the ALJ/PAMC system to ensure its quality. Our Division of
Quality Service (DQS) management review workload reports, at least monthly, to identify errors
or inconsistencies in the system. DQS management also routinely meets with DQS staff to
solicit suggestions for ways to improve the clarity of an entry, as well as the utility and function
of the system. In January 2012, we modified the ALJ/PAMC system to make entries in certain
fields mandatory before we close a complaint. With a more consistent staff and less turnover,
DQS expects that data entries will be more accurate.




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)             G-3
Appendix H– MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Deborah Kinsey, Audit Manager, Chicago Audit Office

Lorrie Clement, Senior Auditor

Wai Ho Yung, Auditor-in-Charge




Administrative Law Judge Public Alleged Misconduct Complaints System (A-05-11-01131)   H-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
                                                     Watch us on YouTube
   •   Semiannual Reports to Congress
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
                                                     Subscribe to our RSS feeds or email updates
   •   an interactive blog, “Beyond The
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
